APPENDIX A

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUL 2 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

FOR THE NINTH CIRCUIT
No. 20-17118

JAMES CONERLY; et al.,
Plaintiffs-Appellants,

v.

D.C. No. 2:20-cv-01833-JAM-AC

memorandum*

JOHN PATRICK WINN; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
John A. Mendez, District Judge, Presiding
Submitted June 21, 2021
Before:
James

SILVERMAN, WATFORD, and BENNETT, Circuit Judges,
and Carina Conerly and Marilyn Tillman-Conerly appeal pro se from

the district court’s judgment dismissing sua sponte their action alleging claims
based on their state court custody proceedings. We have jurisdiction under 28
U S.C. § 1291. We review de novo a district court s dismissal for lack of subject

•
This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

matter jurisdiction based on the Rooker-Feldman doctrine. Noel v. Hall, 341 F.3d
1148,1154 (9th Cir. 2003). We affirm.
The district court properly dismissed plaintiffs’ action for lack of subject
matter jurisdiction under the Rooker-Feldman doctrine because it was a “de facto
appeal” of a prior state court decision and plaintiff raised claims that were
“inextricably intertwined” with that state court decision. See id. at 1163-65
(discussing the Rooker-Feldman doctrine); see also Cooper v. Ramos, 704 F.3d
772,

782 (9th Cir. 2012) (explaining that claims, as well as requests for damages*

are “inextricably intertwined” with the state court decisions where federal
adjudication “would impermissibly undercut the state ruling on the same issues”
(citation and internal quotation marks omitted)).
We reject as meritless plaintiffs’ contention that the district court was biased
against them.
Plaintiffs ’ motion to supplement their brief (Docket Entry No. 5) is granted.
The exhibits attached to the motion include private information . The Clerk is
directed to seal the exhibits.

affirmed.

2

20-17118

APPENDIX B

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
JAMES CONERLY, ET AL.,
CASE NO: 2:20-CV-01833-JAM-AC
V.
JOHN PATRICK WINN, ET AL.,

Decision by the Court. This action came before the Court. The issues have been tried,
heard or decided by the judge as follows:
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT’S ORDER FILED ON 10/15/2020

Keith Holland
Clerk of Court
ENTERED: October 15,2020
hy- /x/ K. Zignago
Deputy Clerk

MIME-Version:1.0 From:caed_cmecf_helpdesk@caed.uscourts.gov To:CourtMail@localhost.localdomain
Carina Conerly
1501 Amazon Ave.
Sacramento CA 95835
, James Conerly
1501 Amazon Ave.
Sacramento CA 95835
, Marilyn Tillman-Conerly
1501 Amazon Ave.
Sacramento CA 95835 .
—Case Participants: Magistrate Judge Allison Claire (caed_cmecf_ac@caed.uscourts.gov), District Judge
John A. Mendez (caed_cmecfJam@caed.uscourts.gov)
—Non Case Participants:
Mess^ge-Iri Object: Activity in Case 2:20-cv-01833-JAM-AC (PS) Conerly et al v. Winn et al Judgment.
Content-Type: text/html
This is an automatic e-mail message generated by the CM/BCf system. Please BO NOT RESPOND to this
e-mail because the mail box is unattended.
***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one free electronic copy oj alt
documents filed electronically, if receipt is required by law or directed by the filer. PACER access Jees
apply to all other users. To avoid later charges, download a copy of each document during tliisjirst
viewing. However, if the referenced document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Eastern District of California - Live System
Notice of Electronic Filing
The following transaction was entered on 10/15/2020 at 9:24 AM PDT and filed on 10/15/2020
Case Name:

(PS) Conerly et al v. Winn et
al

9-90—cv-01833-JAM-AC
Case Number:
Filer:
WARNING: CASE CLOSED on 10/15/2020
Document Number:
14

^DGNHENT dated *10/15/2020* pursuant to order signed by District Judge John A. Mendez
on 10/14/2020. (Zignago, K.)
2:20-cv-01833-JAM-AC Notice has been electronically mailed to:
2:20-cv-01833-JAM-AC Electronically filed documents must be served conventionally by the filer to:
Carina Conerly
1501 Amazon Ave.
Sacramento CA 95835
James Conerly
1501 Amazon Ave.
Sacramento CA 95835
Marilyn Tillman-Conerly
1501 Amazon Ave.
Sacramento CA 95835

1
2
3
4
5

UNITED STATES DISTRICT COURT

6

FOR THE EASTERN DISTRICT OF CALIFORNIA

JAMES CONERLY, et al.,

8

Plaintiffs,

9
10
11
12

No. 2:20-cv-1833 JAM AC

ORDER

v.
HON. JOHN P WINN, et al.,
Defendants.

13
14
15
16
17

Plaintiff proceeds in this action in pro per [and in forma pauperis] . The matter was
referred to a United States Magistrate Judge pursuant to Local Rule 302(c)(21).
On September 16,2020, the magistrate judge filed findings and recommendations herein
which were served on plaintiff and which contained notice to plaintiff that any objections to the

18

findings and recommendations were to be filed within twenty one days . ECFNo. 4. Plaintiff has

19

filed objections to the findings and recommendations. ECF No. 10.

20

21
22
23
24

The court has reviewed the file and finds the findings and recommendations to be
supported by the record and by the magistrate judge’s analysis. Accordingly, IT IS HEREBY
ORDERED that:
The findings and recommendations filed September 16,2020, are adopted in full,
1.
2. This case is DISMISSED for lack of subject matter jurisdiction.

25

26
27

DATED: October 14,2020

/s/ John A. Mendez
THE HONORABLE JOHN A. MENDEZ
UNITED STATES DISTRICT COURT JUDGE

28

1

MIME-Versions.OFrom:caed_cmecf_helpdesk@caed.uscourts.gov To:CourtMail@localhost.localdomam
Message-Id: Subject:Activity in Case 2:20-cv-01833-JAM-AC (PS) Conerly et al v. Winn et al.
Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this
e-mail because the mail box is unattended.
. .
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of California - Live System
Notice of Electronic Filing
The following transaction was entered on 10/15/2020 at 9:23 AM PDT and filed on 10/15/2020
Case Name:

(PS),Conerly et al v. Winn et
al

*

2-20—.cv—01833-JAM=AC
Case Number:
Filer:
WARNING: CASE CLOSED on 10/15/2020
Document Number:
11

ORDER s'gned by District Judge John A. Mendez on 10/14/2020 ADOPTING [^Findings and
Recommendations in full. This case is DISMISSED for lack of subject matter jurisdiction.
CASE CLOSED. (Zignago, K.)
2:20-cv-01833-JAM-AC Notice has been electronically mailed to:
2:20-cv-01833-JAM-AC Electronically filed documents must be served conventionally by the filer to:
Carina Conerly
1501 Amazon Ave.
Sacramento, CA 95835
James Conerly
1501 Amazon Ave.
Sacramento, CA 95835
Marilyn Tillman-Conerly
1501 Amazon Ave.
Sacramento, CA 95835
The following document(s) are associated with this transaction:

V

APPENDIX C

RECEIVED

united states court of appeals
FOR THE NINTH CIRCUIT

riLLVC.DWYEaci.ERK
us. co jbi uf appeals

DEC 2 1 2020

F" PO.__
DATE

James Conerly, Marilyn Tillman-Conerly, 9th Cir. CaseNo.20-1711_8
and Carina Conerly.
Appellants),
District Court or
BAP Case No.2:20-cv-1833 JAM AC

vs.
John Patrick Winn, SharifRoldan Tarpin,
and Kiana R Turner.
Appellee(s).

APPELLANT’S INFORMAL OPENING BRIEF
■TTTRIsmmON. This information helps the court determine if it can review your
case.
1. Timeliness of Appeal:
a. What is the date ofthe judgment or order that you want this court to
review? October 15.2020
b. Did you file any motion, other than for fees and costs, afterthe judgment
was entered? Answer yes or no: No
• If you did, on what date did you file the motion? N/A

INITIAL

9th Cir. Case No.20-17118

Page 1

• For prisoners or detainees, what date did you give die motion to
prison authorities for mailing? N/A
• What date did the district court or bankruptcy appellate panel (BAP)
decide the motion that you filed after judgment? n/a
c. What date did you file your notice of appeal? October 23,2020
• For prisoners or detainees, what date did you give your notice of
appeal to prison authorities for mailing? n/a
FACTS. Include all facts that die court needs to know to decide your case.
2.

What are die facts of your case?
On Angus! 27.2020. Judge John Patrick Wiim issued his “Findings and Order After Hearing”
which affected Plaintiffs Carina Conerly, M.T., James Conerly, and Marilyn Tillman-Conerly.
The order stated in part, “All exchanges shall take place in the parking lot of South Natomas
Library and Park on Traxel Road in Sacramento. There shall be no videotaping nf this
report, shall remain in foil force and effect” (EXHIBIT A}.
On Jnlv 11.2020 minor M T was m die Mictody »f

her hither Sharif Roldan Tarpin

and Kiana Tinner when minor M.T. was severely injured. Defendants Sharif Tarpin and Kiana
Turner failed to take mmor M.T. to dm hospital emergency room. When Plaintiffs Carina Conerly,
James Conerly, and Marilyn Tillman Conerly arrived to pick minor M.T. up, defendant Sharif
Roldan Tarpin was acting rather strangely when he walked minor M.T. over to die car where all
Plaintiffs were waiting. Kiana Turner aided and abetted SharifTarpin (EXHIBIT B). She also
purposely put coconut oil into M.Ts. hair, purposely, because Sharif Tarpin knew that Carina
Conerly was allergic to coconut Kiana Turner provided her vehicle for Sharif Tarpin to use
because his vehicle reeked with Marijuana (EXHIBIT CL Sharif Tarpin smokes Marijuana while
he is driving and parked in public. Kiana assisted Sharif in covering-up die injuries done to M.T.
Both ofdiem knew and know that M.T. is not provided adequate living arrangements
(EXHIBIT D). Without asking, M.T. constantly tells us that she doesn’t want to go with Sharif.

9th Cir. Case No.20-17118

Page 2

She is saddened when we drop ho- off. John Patrick Winn is assisting Sharif Tarpin. John Patrick
Winn not only assist Sharif Tarpin and Kiana Turner, he makes orders to enforce Carina Conerly,
Marilyn Tilhnan-Conerly, and James Conerly to turn over M.T. to Sharif Tarpin and Kiana Turner.
John Patrick Winn continues to violate all Plaintiffs from exercising our 1st Amendment rights to
free speech and due process (EXHIBIT A). We can’t videotape anyone at the exchange (Police)
Sharif Tarpin, Kiana Turner, and SharifTarpin’s family and friends, etc., who also aided and
abetted Sharif Tarpin, to include she provides his transportation (EXHIBIT El. He wants to stop
evidence of SharifTarpin’s bad conduct The photos showed Sharif Tarpin’s wrong doings and bad
conduct My court hearings are continuously violated when John Patrick Winn continues to not
Recuse himself (EXHI IT A, C. D). He sometimes allows James Conerly and Marilyn TillmanConerly to testify as witnesses; however, John Patrick Winn takes no credibility in James Coneriy’s
and Marilyn Tillman-Coneriy’s’ Testimony about Sharif Tarpin. May 20,2020 and July 16,2020,
Judge John Patrick Winn wouldn’t allow Plaintiffs James Conerly and Marilyn Tillman-Conerly to
testify as witnesses for Carina Conerly. All Defendants strategically orchestrated and or agreed to
put together tactics to violate all Plaintiffs Civil Rights. All Defendants acts directly affects and are
done in bad interest ofM.T., for example, Judge John Patrick Winn’s order concerning M.T.’s
health violates M.T.’s medical diagnosis, treatment, and provisions because M.T. cannot get her
regular doctor’s check-up and Treatments (EXHIBIT A.D). After our lawsuits the State of
California and other Defendants; here again Defendant Sharif Tarpin came into the picture. Sharif
Tarpin has never gotten involved in the past four years with M.T.’s doctor concerns. The only time
he was present before Doctor Candace Jones, who is M.T.’s Pediatric Doctor, was when M.T. was
bom. He has abandoned M.T. in her health support; that is why my father, James Conerly, stepped
up to tiie plate to attend every visit with Doctor Candace Jones with myself and M.T. to ensure
M.T. got the best of medical treatment My father, James Conerly, and my mother, Marilyn
Tillman-Conerly, are vety good help with M.T., not only in medical needs, but all other needs and
support when it comes to the best interest ofM.T., and not to forget Black Issues, which none of

9th Cir. Case No.20-17118

Page 3

tiie aforementioned Defendants can give to her, and these needs ate so many today, that Defendants
will never experience nor know. All ofthese Defendants do not care the least bit about M.T. but
acts to serve their own, and each other’s interests and purpose, and interests (which we choose not
to list at this time). That is why we are fighting with all our legal Constitutional Rights to help
M.T., not us so much. We want to show the surprising evidence that we now have and that is
coming, Please? To include Doctor Candace Jones as a witness. Because again, my father has been
at every doctor’s appointment with M.T. and Carina Conerly. James Coneriy is confirming what
he has done with Carina Conerly because he truly and faithfully cares and practices what he
preaches “Good Conduct” of a Godly Father to his children and his Grand-Children. That’s in the
best interest of M.T. M.T. is only now being hindered from having a good and healthy life, that is
free from drugs abuse, alcohol abuse, Marijuana abuse and many other bad behaviors. Why is it
that she sustained injuries now and it has been caused by Sharif Tarpin in such short time thafshe
has been in his custody? Has anyone noticed tins other than Plaintiffs? We are the ones who
knows why, because we know that Sharif Tarpin’s conduct is nothing but bad and we will do
everything, to expose this truth. Check-out Sharif Tarpin’s friends, check-out SharifTarpin’s
automobile, check-out all the kinds of places Sharif Tarpin goes out to, check-out Sharif Tarpin
associates, check-out Sharif Tarpin’s blood test, simply just check-out his conduct ? Maybe
someone else should check out his need for weapons especially since he has been caught with a
concealed weapon without a weapon permit (EXHIBIT O. Fortunately, we won’t give up the
fight for M.T.’s best interest to be restored. In this case, legally we are on it, no matter what the
cost. We feel that if relatives of every child had this support, there will be no need for lawful
interventions ofthe Court, and the children will be safe and well taken care of.

PROCEEDINGS BEFORE THE DISTRICT COURT OR THE BAP. In this
section, we ask you about what happened before you filed your notice ofappeal with
this court.
3.

What did you ask die district court or the BAP to do—for example, did you

9th Cir. Case No.20-17118

Page 4

ask the court to award money damages, issue an injunction, or provide
some other type of relief?
• Plaintiffs requested Rights to Substantive and Procedural Due Process
to Rightfully, Justly, and Freely pursue our Justice within die Courts.
• Plaintiffs requested to exercise Rights to videotape in public.
• Plaintiffs requested to exercise Civil Rights Fair and Equal Treatment
without interference because of being Black.
• Plaintiffs requested disciplinary action be taken against John Patrick
Winn and he be recused from Plaintiff Carina Conerly’s case.
• Plaintiffs request reasonable of compensation for actual-damages, ongoing-damages.
• Plaintiffs request that all Orders made by John Patrick Winn be revoked and Plaintiff
Carina Conerly be given sole legal and physical custody ofM.T..
• Plaintiffs request that they be compensated for legal fees, administrative fees, pain,
suffering, all other fees associated wife violations of Plaintiffs Civil Rights done by
Defendants. Plaintiffs request compensation in the amount of $1,000,000.00 and awarded
compensation for Punitive damages in an amount to be determined.

4.

What legal claim or claims did you raise in the district court or at the BAP?
SYSTEMIC RACISM AGAINST BLACK PLAINTIFFS
Defendants conspired to violate Plaintiffs’ Civil Rights.
Defendants Violated Plaintiffs’ Constitutional Right to Freedom of Speech under then 1st
Amendment.
Defendants violated Plaintiffs’ Constitutional Right to Due Process under the 14* Amendment
Plaintiffs hereby assert that our Rights of Free Speech (including to videotape in public)
Guarantee in the 1 * Amendment of our United States of America Constitution, our Rights to Due
Process Under The 14* Amendment of Our United State of America Constitution (including, us
rights to access our Justice) Constitution have been violated by Defendants herein listed.
Plaintiffs hereby states, our Rights Under Our Civil Rights Act (including our Rights to equal
and fair treatment regardless that we are Blacks! have been violated by Defendants herein stated.

9th Cir. Case No.20-17118

Page 5

John Patrick Winn be recased from Carina Conerly’s case and disciplinary acts be taken against
him* moreover, all existing orders involving the Carina Conerly v. Shanf Tarpin be expunged.
Plaintiffs are entitled to receive our reasonable-amount of actual damages for ongoing damages,
reasonable payment revoked and given Carina Conerly Sole custody of M.T., for pain and
suffering, payment for legal and administrative fees, and any and all other injuries, harm,
damage and losses caused by Defendants’ acts or failure to act, in the amount of $1,000,000.00
each, and punitive damages of an amount to be determined.

5.

F.vhanstinn nf Administrative Remedies. For prisoners, did you use up all
administrative remedies for each claim before you filed your complaint in the
district court? If you did not, please tell us why. n/a

PROCEEDINGS BEFORE THE COURT OF APPEALS* In this section, we ask
you about issues related to this case before the court of appeals and any previous
cases you have had in this court
•

CASE No. 20-17029, D.C. No. 2:19-cv-1021-KJM-KJN James Conerly, Carina Conerly,
Marilyn Tillman-Conerly, and M.T. v. Veracity Research Company, and Kristy Torain.

•

Case No. 20-16679, D.C. No. 2:20-cv-00362-KJM-KJN Carina Conerly, and MX v. Olubunmi
Olaide Awoniyi, Uduak Inyang Oduok, Superior Court of California County of Sacramento, Sharif
Roldan Tarpin, and John Patrick Winn.

6.

What issues are you asking the court to review in this case? What do you
think the district court or the BAP did wrong?
District Court Abused its discretion by Judges’ adversarial conduct toward Plaintiffs; acted bias
toward Plaintiff (manner in which they ordered Plaintiffs to perform, failing to acknowledge
proper service, delaying (holding hostage) Plaintiffs’ cases to allow advantages to Defendants,
improperly posting and in some circumstance not posting, information on “PACER,
gpn robing and trying to find Defaulted Defendants to try to renew the case for Defaulted
Defendants to answer, retaliating because Plaintiffs declined to have Magistrate Judge to
handle their case failing to appoint counsel for Plaintiff; withholding representation for
minor M.T.

Page 6

9th Cir. Case No.20-17118
Court Abused its discretion in the Dismissal for Lack of Subject Matter
Jurisdiction, Denying Plaintiffs’ Right to Default Judgments for, Disregarding
And Failed to consider Plaintiffs’ motion for default judgment, and Ordering
the Plaintiffs’ case be closed.

7.

Did you present all issues listed in Question 6 to the district court or the BAP?
Answer yes or no: Yes.
If not, why not? N/A
What law supports these issues on appeal? (You may refer to cases and
statutes, but you are not required to do so.)

8.

The laws to support the issues on appeal are the 1st Amendment of Ihe United States Constitution,
14* Amendment of the United States Constitution, and Civil Rights Act of 1964.

9.

Other Pending Cases. Do you have any other cases pending in the court of
appeals? If so, give the name and docket number of each case.
•

Case No. 20-16679, D.C. No. 2:20-cv-00362-KJM-KJN Carina Conerly, and MX v. Olubunmi
Olaide Awoniyi, Uduak Inyang Oduok, Superior Court ofCalifornia County of Sacramento, Sharif
Roldan Tarpin, and John Patrick Winn.

•

CASE No. 20-17029, D.C. No. 2:19-cv-1021-KJM-KJN James Conerly, Carina Conerly,
Marilyn Tillman-Conerly, and M.T. v. Veracity Research Company, and Kristy Torain.

10. Previous Cases. Have you filed any previous^ases that the court of appeals
has decided? If so, give the namg

Tampg formerly Marilyn Tillman-Conerlv^
Carina Comerlv

Name

Signatures

7

tsm Amazon Avenue
Sacramento. Ca 95835

December 21.2020

Address

Date

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 25. Certificate of Service for Paper Filing
ATTENTION ELECTRONIC FILERS: DO NOT USE FORM 25
Use Form 25 only if you are not registered for Appellate Electronic Filing.
Instructions
• You must attach a certificate of service to each document you send to the court and to
opposing counsel.
• Include the title of the document you are serving, the name and address of each person
you served with a copy of the document, and the date of mailing or hand delivery.
• Sign and date the certificate. You do not need to have the certificate notarized.
• Remember that you must send a copy of all documents and attachments to counsel for
each party to this case.

9th Cir. Case Number(s) 20-17118
Case Name James Conerlv. Marilvn Tillman-Conerlv. and Carina Conerlv vs.
John Patrick Winn. Sharif Roldan Tarpin. and Kiana R Turner
I certify that I served on the person(s) listed below, either by mail or hand delivery,
a copy of the Appellant’s Informal Opening Brief and any attachments.

-2/Z-

Signature
Name

Date December 21.2020

Address

Date Served

John Patrick Winn

c/o Department of Justice, 13001 Street,
Sacramento, CA 95814

December 21,

Sharif Roldan Tarpin

201 Country Place #190 Sacramento, CA 95831

December 21,

Kiana R Turner

201 Country Place #190 Sacramento, CA 95831

December 21,
2020

2020
2020

Mail thisform to the court at:
Clerk, U.S. Court of Appeals for the Ninth Circuit, P.O. Box 193939, San Francisco, CA 94119-3939

Feedback or questions about thisform? Email us at forms(a).ca9. uscourts. gov

Form 25

Rev. 12/01/18

APPENDIX D

1
2
3
4
5

6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

JAMES CONERLY, et al.,

12
13
14

No. 2:20-cv-01833 JAM AC PS

Plaintiffs,
FINDINGS AND RECOMMENDATIONS

v.
HON. JOHN P. WINN, et al.,

15

Defendants.

16
17

Plaintiffs are proceeding in this action pro se. This proceeding was referred to the

18

undersigned by Local Rule 302(c)(21). Plaintiffs have paid the filing fee, and new civil case

19

documents have issued. ECF No. 3. Upon review of the complaint, the undersigned concludes

20

that the court lacks subject matter jurisdiction to hear this case and recommends that it be

21

dismissed.

22
23

I. The Complaint
Plaintiffs Carina Conerly and her parents Marilyn Tillman-Conerly and James Conerly are

24

suing Judge John Patrick Winn of the Superior Court of California, Sharif Roldan Tarpin, and

25

Kiana Turner for alleged constitutional violations related to custody orders involving a minor

26

child. ECF No. 1 at 2. Plaintiffs assert their basis for jurisdiction is 28 U.S.C. §1331, federal

27

question jurisdiction. The facts alleged are as follows.

28

On August 27,2020, Judge Winn issued an order which impacted plaintiffs Carina
1

1

Conerly, James Conerly, and Marilyn Tillman-Conerly in the care of minor child M.T. ECF No.

2

1 at 3. The order stated in relevant part that “All exchanges shall take place in the parking lot of

3

South Natomas Library and Park on Truxel Road in Sacramento. There shall be no videotaping

4

of this report, shall remain in full force and effect.” Id On July 11,2020, M.T. was in the

5

custody of her father, defendant Sharif Roldan Tarpin, and defendant Kiana Turner, when M.T.

6

was severely injured. Id Defendants failed to take M.T. to the emergency room. Id Plaintiffs

7

allege that when they went to pick M.T. up, defendant Tarpin was acting strangely. Id They

8

allege plaintiff Turner put coconut oil in M.T.’s hair knowing that Carina Conerly was allergic to

9

coconut. Id. Plaintiffs allege that Turner provided her vehicle to Tarpin to use because his

10

smelled of marijuana. Id They further assert that Turner assisted Tarpin in covering up injuries

11

to M.T. and inadequacies related to M.T.’s living arrangements. Id. Plaintiffs assert that without

12

prompting, M.T. consistently asks not to go with Tarpin and is sad when she is dropped off with

13

him. Id.

14

Plaintiffs allege that Judge Winn is assisting Turner and Tarpin. Id. Judge Winn

15

consistently orders plaintiffs to turn over M.T. to Tarpin and Turner. Id They claim that Judge

16

Winn is violating their First Amendment rights to free speech and due process by not allowing the

17

videotaping of exchanges of M.T. Id. Plaintiffs allege the court healings in front of Judge Winn

18

violate their rights because Judge Winn refuses to recuse himself and he continually discredits the

19

testimony of James Conerly and Marilyn Tillman Conerly about Sharif Tarpin. Id. On several

20

occasions, Judge Winn refused to allow plaintiffs to testify. Id. at 3-4.

21

Plaintiffs assert their right to free speech under the First Amendment and their right to

22

Due Process under the Fourteenth amendment have been violated by defendants, particularly their

23

right to videotape in public. Id at 5. They ask the court to force Judge Winn to recuse himself

24

from Carina Conerly’s case and for disciplinary action to be taken against him. Id. Plaintiffs

25

seek damages in the amount of $1,000,000 from each defendant and “moreover all existing orders

26

involving the Carina Conerly v. Sharif Tarpin be [(missing word)].” Id. at 5. The court

27

presumes, based on the contents of the complaint, that plaintiffs wish the orders to be vacated.

28

////

2

1

II. Analysis

2

1- Sua Sponte Dismissal for Lack of Subject Matter Jurisdiction

3

Federal courts are courts of limited jurisdiction; a federal court generally has jurisdiction

4

over a civil action when: (1) a federal question is presented in an action “arising under the

5

Constitution, laws, or treaties of the United States” or (2) there is complete diversity of

6

citizenship between the parties and the amount in controversy exceeds $75,000. See 28 U.S.C. §§

7

1331,1332(a). Absence of subject matter jurisdiction requires a federal court to dismiss a case.

8

See Ruhrgas AG v. Marathon Oil Co.. 526 U.S. 574,583 (1999) (recognizing that “Article TTT

9

generally requires a federal court to satisfy itself of its jurisdiction over the subject matter before

10

it considers the merits of a case”). Thus, “a court may raise the question of subject matter

11

jurisdiction, sua sponte, at any time during the pendency of the action.” Snell v. Cleveland. Inc..

12

316 F.3d 822, 826 (9th Cir. 2002). The “presence or absence of federal-question jurisdiction is

13

governed by the ‘well-pleaded complaint rule,’ which provides that federal jurisdiction exists

14

only when a federal question is presented on the face of the plaintiffs properly pleaded

15

complaint.” Caterpillar Inc, v. Williams. 482 U.S. 386, 392 (1987).

16

2. This Case is Barred bv the Rooker-Feldman Doctrine

17

Although plaintiffs’ complaint is cast as involving violations of federal law, it is clear

18

from the content of the complaint and the remedies sought (specifically, the recusal of the judge

19

overseeing the relevant child custody action and the apparent desire to have existing orders

20

overturned) that they are essentially seeldng to appeal state court judgments regarding child

21

custody obligations. See Cooper v. Ramos. 704 F.3d 772,777-78 (9th Cir. 2012) (“To determine

22

whether an action functions as a de facto appeal, we pay close attention to the relief sought by the

23

federal-court plaintiff.”). The court does not have jurisdiction to hear such a case.

24

The Rooker-Feldman doctrine1 prohibits federal district courts from hearing cases

25

brought by state-court losers complaining of injuries caused by state-court judgments rendered

26

before the district court proceedings commenced and inviting district court review and rejection

27
l

28

See Roolcer v. Fidelity Trust Co., 263 U.S. 413 (1923) and District of Columbia Court nf
Appeals v. Feldman. 460 U.S. 462 (1983).
3

1

of those judgments.” Exxon Mobil Coro, v. Saudi Basic Indus. Coro.. 544 U.S. 280,284 (2005).

2

To determine if the Rooker-Feldman doctrine bars a case, a court must first determine if the

3

federal action contains a forbidden de facto appeal of a state court judicial decision. Noel v. Hall.

4

341 F.3d 1148,1156 (9th Cir. 2003). If it does not, “the Rooker-Feldman inquiry ends.” Bell v.

5

City of Boise. 709 F.3d 890, 897 (9th Cir. 2013). If a court determines that the action is a

6

“forbidden de facto appeal,” however, the court cannot hear the de facto appeal portion of the

7

case and, [a]s part of that refusal, it must also refuse to decide any issue raised in the suit that is

8

‘inextricably intertwined’ with an issue resolved by the state court in its judicial decision.” Noel.

9

341 F.3d at 1158; see also Bell. 709 F.3d at 897 (“The ‘inextricably intertwined’ language from

10

Feldman is not a test to determine whether a claim is a de facto appeal, but is rather a second and

11

distinct step in the Rooker-Feldman analysis.”). A complaint is a “de facto appeal” of a state

12

court decision where the plaintiff “complains of a legal wrong allegedly committed by the state

13

court, and seeks relief from the judgment of that court.” Noel. 341 F.3d at 1163.

14

In seeking a remedy in which this court invalidates a state court decision and amends the

15

state court record, and removes a judge, plaintiffs are clearly asking this court to “review the final

16

determinations of a state court in judicial proceedings,” which is at the core of Rooker-Feldman’s

17

prohibition. In re Gruntz. 202 F.3d 1074,1079 (9th Cir. 2000). Requests to vacate family court

18

orders are generally considered de facto appeals. Rilev v. Knowles. No. l:16-CV-0057-JLT,

19

2016 WL 259336, at *3 (E.D. Cal. Jan. 21,2016). Requests to a federal court to reverse the

20

outcomes of family law disputes, such as divorce proceedings or child custody determinations,

21

are generally treated as de facto appeals generally barred by Rooker-Feldman. Moore v. County

22

of Butte. 547 Fed. Appx. 826, 829 (9th Cir. 2013). Therefore, plaintiffs action constitutes a

23

“forbidden de facto appeal” and the court lacks subject matter jurisdiction to hear the case. The

24

case must be dismissed in its entirety.

25

3. Judge Winn is Absolutely Immune from Suit

26

Even if the Rooker-Feldman doctrine did not deprive this court of subject matter

27

jurisdiction, the court notes that it does not have the power to remove a state court judge from a

28

case or punish a state court judge for their judicial opinions. Judges are absolutely immune from
4

1

suit where, as here, they are sued for their judicial actions. Mireles v. Waco. 502 U.S. 9,11-12

2

(1991) (per curiam) (citing Forrester v. White. 484 U.S. 219,227-229 (1988) and Stump v.

3

Sparkman, 435 U.S. 349,356-57 (1978)); Lonneker Farms. Inc, v. Klobucher, 804 F.2d 1096,

4

1097 (9th Cir.1986) (judge enjoys absolute judicial immunity when sued for actions that “were

5

judicial in nature and were not done in clear absence of all jurisdiction”). Plaintiff s complaint

6

against Judge Winn is based entirely on his judicial decisions. Thus, based on the facts alleged,

7

plaintiff’s complaint against Judge Winn necessarily fails and must be dismissed.
III. Conclusion

8

9
10
11

Accordingly, the undersigned recommends that this case be DISMISSED for lack of
subject matter jurisdiction.
These findings and recommendations are submitted to the United States District Judge

12

assigned to the case, pursuant to the provisions of 28 U.S.C. § 636(b)(1). Within twenty-one days

13

after being served with these findings and recommendations, plaintiff may file written objections

14

with the court and serve a copy on all parties. Id.; see also Local Rule 304(b). Such a document

15

should be captioned “Objections to Magistrate Judge’s Findings and Recommendations.” Failure

16

to file objections within the specified time may waive the right to appeal the District Court’s

17

order. Turner v. Duncan. 158 F.3d 449,455 (9th Cir. 1998), as amended on denial of reh'g (Nov.

18

24,1998); Martinez v. Ylst. 951 F.2d 1153,1156-57 (9th Cir. 1991)

19

DATED: September 15, 2020

20

21

UMlISsTA^SMAGISTRATE JUDGE

22
23
24

25
26
27
28

5

MIME-Version: 1.0 From:caed_cmecf_helpdesk@caed.uscourts.gov To:CourtMail@localhost.Iocaldomain
Message-Id: Subject:Activity in Case 2:20-cv-01833-JAM-AC (PS) Conerly et al v. Winn et al Findings
and Recommendations (Motion). Content-Type: text/html
This is an automatic e-mail message generated by the CM/ECF system* Please DO NOT RESPOND to this
e-mail because the mail box Is unattended.
***NOTE TO PUBLIC ACCESS USERS*** There is no charge for viewing opinions.
U.S. District Court
Eastern District of California - Live System
Notice of Electronic Filing
The following transaction was entered on 9/16/2020 at 12:26 PM PDT and filed on 9/16/2020
Case Name:

(PS) Conerly et al v. Winn et
al
2:20-cv-01833—I AM-AC

Case Number:
Filer:
Document Number:
4
Docket Text*
FINDINGS and RECOMMENDATIONS signed by Magistrate Judge Allison Claire on 9/15/2020
RECOMMENDING that this case be dismissed for lack of subject matter jurisdiction. Referred
to Judge John A. Mendez. Objections due within 21 days after being served with these
findings and recommendations. (Tupolo, A)
2:20-cv-01833-JAM-AC Notice has been electronically mailed to:
2:20-cv~01833-JAM-AC Electronically filed documents must be served conventionally by the filer to:
Carina Conerly
1501 Amazon Ave.
Sacramento, CA 95835
James Conerly
1501 Amazon Ave.
Sacramento, CA 95835
Marilyn Tillman-Conerly
1501 Amazon Ave.
Sacramento, CA 95835
The following document(s) are associated with this transaction:

Additional material
from this filing is
available in the
Clerk's Office.

